1a
APPENDIX A
Supreme Court of Ohio
The STATE of Ohio, Appellee,
v.
HAWKINS, Appellant.
No. 2018-1177
Submitted April 24, 2019
Decided October 16, 2019
CERTIFIED by the Court of Appeals for Fayette
County, No. CA2017-07-013, 2018-Ohio-1983.
Jess C. Weade, Fayette County Prosecuting Attorney, and John M. Scott Jr., Assistant Prosecuting
Attorney, for appellee.
Shannon M. Treynor, London, for appellant.
Kennedy, J.
{¶ 1} This case was accepted as a certified conflict
between judgments of the Twelfth District and Fifth
District Courts of Appeals. The Twelfth District certified the issue in conflict as follows:
“Does the discrepancy between the paint color
of a vehicle and the paint color listed in vehicle
registration records accessed by a police officer
provide the officer with reasonable articulable
suspicion to perform a lawful investigative traffic stop where the officer believes the vehicle or
its displayed license plates may be stolen[?]”
153 Ohio St.3d 1474, 2018-Ohio-3637, 106 N.E.3d
1259, quoting the court of appeals’ journal entry.
{¶ 2} We answer the question in the affirmative
and hold, based on these facts, that when an officer

2a
encounters a vehicle the whole of which is painted a
different color from the color listed in the vehicleregistration records and the officer believes, based
on his experience, that the vehicle or its displayed
license plates may be stolen, the officer has a reasonable, articulable suspicion of criminal activity
and is authorized to perform an investigative traffic
stop.
{¶ 3} Accordingly, we affirm the judgment of the
Twelfth District Court of Appeals.
FACTS AND PROCEDURAL HISTORY
Traffic Stop
{¶ 4} Around 3:00 a.m. on May 20, 2016, Washington Court House Police Officer Jeffery Heinz was
completing a traffic stop when a vehicle drove past
his patrol car and Heinz heard his license-plate
reader beep. A license-plate reader (“reader”) is a
computer-controlled camera system installed in
some law-enforcement vehicles. The cameras, which
are mounted to the trunk of the vehicle, capture images of the license plates of cars nearby. The system
beeps to alert the officer that a plate has been captured, and an image of the plate is displayed on the
computer’s screen.
{¶ 5} Upon hearing the beep, Heinz looked at the
computer screen and saw an image of a license plate
with a Franklin County sticker. He ran the licenseplate number and was informed by the dispatcher
that the license plate was registered to a white 2001
GMC SUV. Heinz looked in his rearview mirror and
saw that the vehicle, a GMC SUV, was black. He finished the traffic stop and began searching for the
vehicle.

3a
{¶ 6} Heinz located the vehicle and initiated a
traffic stop. The driver, appellant, Justin Hawkins,
pulled over. Heinz explained to Hawkins that the
color discrepancy was the reason for the stop and
asked to see Hawkins’s identification. Hawkins told
Heinz that he did not have identification with him.
Heinz was able to verify that the vehicle’s identification number matched the number registered with
the Bureau of Motor Vehicles (“BMV”) while he was
attempting to learn Hawkins’s personal information.
{¶ 7} Hawkins provided Heinz with a Social Security number; however, the dispatcher informed
Heinz that the number was not associated with the
name Hawkins. Heinz then verified with Hawkins
his name and date of birth and asked him again for
his Social Security number. Hawkins provided a second Social Security number. At this time, Hawkins
informed Heinz that he was running low on gas.
Heinz told Hawkins the location of a gas station.
{¶ 8} Hawkins pulled away, and Heinz followed in
his patrol car. While following Hawkins, Heinz was
notified by the dispatcher that the second Social Security number also was not Hawkins’s. Heinz, still
following Hawkins, then provided the dispatcher
with Hawkins’s name and date of birth. The dispatcher advised Heinz that Hawkins did not have a
valid driver’s license and that there was an outstanding warrant out of Delaware County for Hawkins’s arrest.
{¶ 9} Heinz activated his lights to initiate a second traffic stop. Hawkins pulled his vehicle over, and
Heinz approached. Heinz informed Hawkins of the
outstanding warrant, and Hawkins sped away at a
high rate of speed.

4a
{¶ 10} Hawkins was apprehended after crashing
the vehicle and fleeing on foot. Upon his arrest, the
vehicle was inventoried and two credit cards that
had been reported stolen were found in the glove
compartment.
Trial-Court Proceedings
{¶ 11} On June 3, 2016, Hawkins was indicted on
two counts of receiving stolen property in violation of
R.C. 2913.51(A) and (C), felonies of the fifth degree,
and one count of failing to comply with an order or
signal of a police officer in violation of R.C.
2921.331(B) and (C)(5)(a)(ii), a felony of the third degree. He moved to suppress the evidence obtained
relating to the traffic stop on the basis that Heinz
had lacked reasonable suspicion to make an investigatory stop.
{¶ 12} At the suppression hearing, Heinz was the
only witness to testify. He explained the basis for initiating the traffic stop. He stated that in his experience the discrepancy between the color in the BMV
registration and the actual color of the vehicle could
indicate that the vehicle and the license plates had
been stolen. “[W]ith my experience, if someone would
steal a vehicle, they would just go through a parking
lot anywhere and find a vehicle that would match
the vehicle in which they were driving. Throw [the
license plate from that vehicle] on there and then
drive around.” He indicated that he had never encountered this personally, but he knew that it had
occurred in the Washington Court House area.
{¶ 13} The trial court overruled Hawkins’s motion
to suppress. After a jury trial, Hawkins was convicted of failure to comply and acquitted of receiving sto-

5a
len property. The trial court imposed a sentence of
36 months in prison.
Appellate-Court Proceedings
{¶ 14} Hawkins appealed to the Twelfth District
Court of Appeals and advanced one assignment of
error. He argued that the color discrepancy did not
amount to a reasonable and articulable suspicion of
criminal activity on which to base the traffic stop.
{¶ 15} The appellate court disagreed. It affirmed
the trial court, concluding that the color discrepancy
was sufficient to raise Heinz’s suspicion that the vehicle was either stolen or that the license plate had
been taken from another vehicle. 2018-Ohio-1983,
101 N.E.3d 520, ¶ 21. However, the Twelfth District
granted Hawkins’s motion to certify that its judgment was in conflict with the Fifth District’s judgment in State v. Unger, 5th Dist. Stark No. 2016 CA
00148, 2017-Ohio-5553, 2017 WL 2799530. We recognized that a conflict exists. 153 Ohio St.3d 1474,
2018-Ohio-3637, 106 N.E.3d 1259.
ANALYSIS
Standard of Review
{¶ 16} Appellate review of a ruling on a motion to
suppress presents a mixed question of law and fact.
State v. Burnside, 100 Ohio St.3d 152, 2003-Ohio5372, 797 N.E.2d 71, ¶ 8. An appellate court must
accept the trial court’s findings of fact if they are
supported by competent, credible evidence. See State
v. Fanning, 1 Ohio St.3d 19, 20, 437 N.E.2d 583
(1982). But the appellate court must decide the legal
questions independently, without deference to the
trial court’s decision. Burnside at ¶ 8.

6a
The Fourth Amendment and Investigatory Stops
{¶ 17} The Fourth Amendment to the United
States Constitution provides:
The right of the people to be secure in their
persons, houses, papers, and effects, against
unreasonable searches and seizures, shall not
be violated, and no Warrants shall issue, but
upon probable cause, supported by Oath or affirmation, and particularly describing the place
to be searched, and the persons or things to be
seized.
{¶ 18} We have held that in felony cases, Article I,
Section 14 of the Ohio Constitution provides the
same protection as the Fourth Amendment to the
United States Constitution. State v. Jones, 143 Ohio
St.3d 266, 2015-Ohio-483, 37 N.E.3d 123, ¶ 12.
{¶ 19} “The Fourth Amendment permits brief investigative stops * * * when a law enforcement officer has ‘a particularized and objective basis for
suspecting the particular person stopped of criminal
activity.’” Navarette v. California, 572 U.S. 393, 396,
134 S.Ct. 1683, 188 L.Ed.2d 680 (2014), quoting
United States v. Cortez, 449 U.S. 411, 417-418, 101
S.Ct. 690, 66 L.Ed.2d 621 (1981). This rule traces its
beginning to Terry v. Ohio, 392 U.S. 1, 88 S.Ct. 1868,
20 L.Ed.2d 889 (1968), and therefore, the type of stop
involved is referred to as a “Terry stop.” In Terry, the
United States Supreme Court “implicitly acknowledged the authority of the police to make a forcible
stop of a person when the officer has reasonable, articulable suspicion that the person has been, is, or is
about to be engaged in criminal activity.” (Emphasis
deleted.) United States v. Place, 462 U.S. 696, 702,
103 S.Ct. 2637, 77 L.Ed.2d 110 (1983).

7a
{¶ 20} Precisely defining “reasonable suspicion” is
not possible, and as such, the reasonable-suspicion
standard is “‘not readily, or even usefully, reduced to
a neat set of legal rules.’” Ornelas v. United States,
517 U.S. 690, 695-696, 116 S.Ct. 1657, 134 L.Ed.2d
911 (1996), quoting Illinois v. Gates, 462 U.S. 213,
231, 103 S.Ct. 2317, 76 L.Ed.2d 527 (1983). The reasonableness of a Terry stop “depends on a balance
between the public interest and the individual’s
right to personal security free from arbitrary interference by law officers.” United States v. BrignoniPonce, 422 U.S. 873, 878, 95 S.Ct. 2574, 45 L.Ed.2d
607 (1975). The level of suspicion required to meet
the reasonable-suspicion standard “is obviously less
demanding than that for probable cause,” and “is
considerably less than proof of wrongdoing by a preponderance of the evidence” but is “something more
than an ‘inchoate and unparticularized suspicion or
“hunch.”’” United States v. Sokolow, 490 U.S. 1, 7,
109 S.Ct. 1581, 104 L.Ed.2d 1 (1989), quoting Terry
at 27, 88 S.Ct. 1868.
{¶ 21} To determine whether an officer had reasonable suspicion to conduct a Terry stop, the “totality of circumstances” must be considered and “viewed
through the eyes of the reasonable and prudent police officer on the scene who must react to events as
they unfold.” State v. Andrews, 57 Ohio St.3d 86, 8788, 565 N.E.2d 1271 (1991). “This process allows officers to draw on their own experience and specialized training to make inferences from and deductions about the cumulative information available to
them that ‘might well elude an untrained person.’”
United States v. Arvizu, 534 U.S. 266, 273, 122 S.Ct.
744, 151 L.Ed.2d 740 (2002), quoting Cortez at 411,
101 S.Ct. 690.

8a
{¶ 22} “A determination that reasonable suspicion
exists, however, need not rule out the possibility of
innocent conduct.” Id. at 277, 122 S.Ct. 744. In permitting detentions based on reasonable suspicion,
“Terry accepts the risk that officers may stop innocent people.” Illinois v. Wardlow, 528 U.S. 119, 126,
120 S.Ct. 673, 145 L.Ed.2d 570 (2000).
Heinz Had Reasonable, Articulable Suspicion to Stop
Hawkins
{¶ 23} In this case, Heinz’s suspicions were
aroused when he saw a vehicle the entirety of which
was a different color from the color indicated in the
BMV records for the vehicle associated with the license plate that was captured by Heinz’s reader. The
facts that the color discrepancy itself is not a crime
and that there may be an innocent explanation for
the discrepancy do not mean that the discrepancy
may be disregarded in determining whether Heinz
had reasonable suspicion. See Arvizu at 274, 122
S.Ct. 744 (reviewing the totality of the circumstances
requires consideration of an observation that “was by
itself readily susceptible to an innocent explanation”). To assign noncriminal behavior no weight
would “seriously undercut the ‘totality of the circumstances’ principle which governs the existence vel
non of ‘reasonable suspicion.’” Id. at 274-275, 122
S.Ct. 744. Behavior and circumstances that are noncriminal by nature may “be unremarkable in one instance * * * while quite unusual in another.” Id. at
276, 122 S.Ct. 744. An officer is “entitled to make an
assessment of the situation in light of his specialized
training and familiarity with the customs of the area’s inhabitants.” Id.
{¶ 24} In this case, Heinz testified that in his ex-

9a
perience, the color discrepancy could signify that the
vehicle either was stolen or had an illegal license
plate. He knew that in the past, car thieves in the
area had stolen a vehicle and then switched the license plates with a vehicle of the same make and
model. Based on his professional experience, Heinz
suspected that Hawkins was engaged in criminal activity. Therefore, we hold that under the totality of
the circumstances, Heinz met the reasonable-andarticulable-suspicion standard necessary to perform
a lawful investigative traffic stop.
CONCLUSION
{¶ 25} Based on these facts, when an officer encounters a vehicle the whole of which is painted a
different color from the color listed in the vehicleregistration records and the officer believes, based
on his experience, that the vehicle or its displayed
license plates may be stolen, the officer has a reasonable, articulable suspicion of criminal activity
and is authorized to perform an investigative traffic
stop.
{¶ 26} We affirm the judgment of the Twelfth District Court of Appeals
Judgment affirmed.
O’Connor, C.J., and French, Fischer, and DeWine,
JJ., concur.
Stewart, J., concurs in judgment only.
Donnelly, J., dissents, with an opinion.
Donnelly, J., dissenting.
{¶ 27} This certified-conflict case began here with
a poorly worded question, and it has ended with an

10a
erroneous answer. I would answer the conflict question in the negative and reverse the judgment of the
Twelfth District Court of Appeals.
{¶ 28} It is not reasonable for a police officer to infer that a vehicle’s driver has stolen the vehicle, stolen license plates from a second vehicle, and
switched the license plates whenever the officer notices a discrepancy between the color of a vehicle and
the color listed in its registration records. In direct
response to the conflict question, I would hold that
such a discrepancy, by itself, does not provide the
reasonable suspicion necessary to justify an investigatory seizure pursuant to Terry v. Ohio, 392 U.S. 1,
88 S.Ct. 1868, 20 L.Ed.2d 889 (1968).
{¶ 29} Additionally, although the certified question focuses on the specific context of vehicleregistration records, I have grave concerns about the
state using the holding in this case in broader contexts. I would hold that a totality-of-thecircumstances analysis is inapplicable in cases in
which only one fact is relied upon to justify an investigatory seizure. I would also hold that a police officer’s knowledge of secondhand anecdotal information from an unidentified source does not constitute personal experience or specialized training.
{¶ 30} This case is a far cry from Terry and United States v. Arvizu, 534 U.S. 266, 122 S.Ct. 744, 151
L.Ed.2d 740 (2002), both of which involved multiple
facts that cumulatively led an officer to infer criminal activity, requiring a totality-of-the-circumstances
analysis. Here, instead of having a single inference
based upon a wealth of assorted facts, we have a
wealth of inferences based upon a single fact. And
the single fact in this case is that a 15-year-old black

11a
GMC SUV was registered as a 15-year-old white
GMC SUV.
{¶ 31} Rather than asking whether such a color
discrepancy alone provides a police officer with reasonable suspicion that the vehicle or its license
plates may be stolen, the certified question asks
whether such a color discrepancy and the officer’s
belief that the vehicle or license plates may be stolen
provides a police officer with reasonable suspicion
that the vehicle or its license plates may be stolen.
My belief is that the certifying appellate court confounded an officer’s inferences from the circumstances with the circumstances themselves in order to
portray the case as one requiring a consideration of
the totality of multiple circumstances.
{¶ 32} In a review of a police officer’s assertion of
reasonable suspicion, “due weight must be given, not
to his inchoate and unparticularized suspicion or
‘hunch,’ but to the specific reasonable inferences
which he is entitled to draw from the facts.” (Emphasis added.) Terry, 392 U.S. at 27, 88 S.Ct. 1868, 20
L.Ed.2d 889. An officer’s experience and background
are certainly important considerations when determining whether the inferences he drew from the
facts were reasonable. Id.; Arvizu at 273, 122 S.Ct.
744. But an officer’s inferences drawn from the facts,
as well as the background and experience informing
those inferences, are not part of the facts themselves. Thus, in this case, Officer Jeffery Heinz’s
background and his personal belief that the vehicle
driven by Hawkins might have been stolen cannot be
used to pad the sole fact supporting his investigatory
seizure of Hawkins in order to justify a totality-ofthe-circumstances analysis.

12a
{¶ 33} In addition to accepting the false premise
that this case involves the consideration of multiple
facts, the majority defends the reasonableness of Officer Heinz’s inferences by referencing the notion
that police officers “‘draw on their own experience
and specialized training’” when making inferences
about those facts. Majority at ¶ 21, quoting Arvizu,
534 U.S. at 273, 122 S.Ct. 744, 151 L.Ed.2d 740. But
Officer Heinz did not testify as to any personal experience or specialized training to justify the connection he drew between vehicle/registration color discrepancies and the switching of license plates on stolen vehicles.
{¶ 34} If anything, Officer Heinz’s testimony regarding his personal experience on the police force
suggested that license-plate-switching was not likely
to have happened. Officer Heinz testified that he had
been a police officer in Washington Court House for
over 14 years. Over the course of his career, he had
investigated more vehicle thefts than he could count.
He had investigated both vehicle thefts and licenseplate thefts. But he had not once in his entire 14year career encountered a situation in which a person had stolen a vehicle and replaced its license
plates with plates that he had stolen from a similar
vehicle of a different color. He assured the court,
though, that “it is done.” He did not cite any specialized training that had led to his understanding that
“it is done.” He simply indicated that such a crime
had occurred one or more times in his city. The majority quotes a portion of Officer Heinz’s testimony in
which he implies that his knowledge of these crimes
comes from his own experience. Majority opinion at
¶ 12. But that testimony was clarified when the officer was asked whether he had personal experience

13a
involving stolen vehicles with switched plates and he
said that he did not.
{¶ 35} Because Officer Heinz’s belief was based on
secondhand anecdotal information from an unknown
source rather than personal experience or specialized training, his personal belief does not add much
weight to the analysis, let alone dispositive weight.
More importantly, Officer Heinz’s testimony about
his secondhand information seemed to be an attempt
to demonstrate the likelihood that a car thief might
switch license plates in order to evade detection. But
his testimony in no way demonstrated the likelihood
that anyone driving a car with a vehicle/registration
color discrepancy might be a car thief who had
switched license plates.
{¶ 36} Ohio’s laws and regulations governing vehicle registration, R.C. Chapter 4503 and Ohio
Adm.Code 4501:1-7, do not address vehicle color at
all, let alone require a driver to immediately file a
new registration application to update or correct a
vehicle’s registered color. There is nothing unlawful
in Ohio about driving a vehicle whose color does not
match the color listed on the vehicle’s registration.
The baseline here, then, is that driving such a vehicle is consistent with innocent conduct. If behavior is
consistent with innocent conduct, it must be combined with additional conduct if it is to be used to establish reasonable suspicion of illegal conduct. Terry,
392 U.S. at 22, 88 S.Ct. 1868, 20 L.Ed.2d 889; United
States v. Sokolow, 490 U.S. 1, 9-10, 109 S.Ct. 1581,
104 L.Ed.2d 1 (1989); United States v. Cortez, 449
U.S. 411, 419-420, 101 S.Ct. 690, 66 L.Ed.2d 621
(1981); United States v. Manzo-Jurado, 457 F.3d
928, 935 (9th Cir.2006) (“Seemingly innocuous behavior does not justify an investigatory stop unless it

14a
is combined with other circumstances that tend cumulatively to indicate criminal activity”).
{¶ 37} It is true that the proper inquiry for making a determination of reasonable suspicion is not
whether each individual act is innocent or guilty.
Sokolow at 10, 109 S.Ct. 1581, citing Illinois v.
Gates, 462 U.S. 213, 243, 103 S.Ct. 2317, 76 L.Ed.2d
527 (1983), fn. 13. But it is also true that the reasonable-suspicion inquiry requires that some acceptable
“degree of suspicion” must attach to a noncriminal
act. Id. So what degree of suspicion attaches here? Is
driving a vehicle with a color that does not match
the color listed on the vehicle’s registration the kind
of behavior to which reasonable suspicion of illegal
activity readily attaches, as is true of running away
after seeing police, Illinois v. Wardlow, 528 U.S. 119,
124, 120 S.Ct. 673, 145 L.Ed.2d 570 (2000), or smelling distinctively of marijuana, United States v. Ramos, 443 F.3d 304, 308 (3d Cir.2006)? Or is this the
kind of behavior that, although unusual, does not
yield a high enough degree of suspicion on its own to
justify an investigatory seizure, such as possessing
luggage that smells of an unidentified chemical,
United States v. Little, 18 F.3d 1499, 1506 (10th
Cir.1994), wearing a wig and sunglasses, People v.
Tate, 367 Ill.App.3d 109, 116-117, 304 Ill.Dec. 883,
853 N.E.2d 1249 (2006), or having more than one air
freshener in a vehicle, United States v. RodriguezEscalera, 884 F.3d 661, 670 (7th Cir.2018)?
{¶ 38} I believe that driving a vehicle that is a
color other than the color listed on its registration
falls solidly in the second category. The majority of
jurisdictions addressing this issue tend to agree: so
long as a color discrepancy does not constitute a violation of state law, then the discrepancy, standing

15a
alone, does not adequately support reasonable suspicion absent some other indicia of criminal activity.
United States v. Uribe, 709 F.3d 646 (7th Cir.2013);
Schneider v. State, 2015 Ark. 152, 459 S.W.3d 296;
State v. Teamer, 151 So.3d 421 (Fla.2014); Commonwealth v. Mason, Va.App. No. 1956-09-2, 2010
WL 768721 (Mar. 9, 2010) (unpublished decision);
State v. O’Neill, N.H.Super. Nos. 06-S-3456 and 06S-3457, 2007 WL 2227131 (Apr. 17, 2007). Compare
Smith v. State, 713 N.E.2d 338, 342 (Ind.App.1999)
(court upheld traffic stop; held that mismatch in color constituted a traffic violation under Indiana law).
{¶ 39} In this case, it was within the realm of possibility that Hawkins stole a black 2001 GMC SUV,
drove around until he found another 2001 GMC SUV
(which happened to be white), stole the license plates
from the white 2001 GMC SUV, and put those plates
on the black 2001 GMC SUV. It was also quite possible that the vehicle was originally white but was
painted black at some point in the previous 15 years.
And it was also quite possible that the vehicle had
always been black and a mistake was made at some
point in the Bureau of Motor Vehicles’ (“BMV’s”) record keeping or in the transfer of the vehicleregistration information to the police. 1 Although it is
unusual for a vehicle’s color not to match the color
listed on its registration, there is nothing in Hawkins’s suppression hearing establishing that the
The latter circumstance seems to have been the case for the
vehicle that Hawkins was driving: all of the BMV records prior
to June 2016 that are in the record before this court do not indicate any color for the 2001 GMC SUV, and the only document
indicating the color as white is a document that was printed
from police records and was submitted by the state.

1

16a
drivers of such vehicles are not, by and large, innocent travelers. Thus, subjecting all such drivers to
random investigatory seizures offends the Fourth
Amendment’s basic protections. See Reid v. Georgia,
448 U.S. 438, 441, 100 S.Ct. 2752, 65 L.Ed.2d 890
(1980).
{¶ 40} Officer Heinz’s testimony did not establish
that a vehicle/registration color discrepancy, alone,
gives rise to a reasonable suspicion that the vehicle’s
driver is engaged in criminal activity. Instead, Officer Heinz’s testimony established that he had a
hunch that this might be one of those instances in
which the innocent conduct might not actually be innocent. Because nothing more than an inchoate suspicion of criminal activity was present in this case, I
would reverse the judgment of the Twelfth District
Court of Appeals.

17a
APPENDIX B
Court of Appeals of Ohio, Twelfth District, Fayette
County
STATE of Ohio, Plaintiff–Appellee,
v.
Justin HAWKINS, Defendant–Appellant.
NO. CA2017–07–013
5/21/2018
CRIMINAL APPEAL FROM FAYETTE COUNTY
COURT OF COMMON PLEAS, Case No.
CRI20160145.
Jess C. Weade, Fayette County Prosecuting Attorney, John M. Scott, Jr., 110 East Court Street,
Washington C.H., Ohio 43160, for plaintiff-appellee
Steven H. Eckstein, 1208 Bramble Avenue, Washington C.H., Ohio 43160, for defendant-appellant
OPINION
HENDRICKSON, P.J.
{¶ 1} Defendant-appellant, Justin Hawkins, appeals from his conviction for the failure to comply
with an order or signal of a police officer, arguing the
Fayette County Court of Common Pleas erred when
it denied his motion to suppress. For the reasons
stated below, we affirm the trial court’s denial of appellant’s motion to suppress and uphold his conviction.
{¶ 2} At approximately 3:00 a.m. on May 20, 2016,
Patrolman Jeffery Heinz, a 14–year veteran police
officer with the city of Washington Court House, was
finishing up a traffic stop on Draper Street when a
black GMC SUV driven by appellant passed his pa-

18a
trol car. Heinz’s onboard license plate reader captured the license plate of the vehicle, and Heinz ran
the license plate number through dispatch to obtain
the vehicle’s registration information. Heinz was advised that the license plate was registered to a 2001
white GMC SUV. Heinz quickly concluded his original traffic stop before locating the black GMC SUV
and pulling it over. Heinz initiated the traffic stop of
the SUV because he was concerned that the vehicle
might have been stolen or had a “fictitious registration.”
{¶ 3} After stopping the SUV, Heinz explained to
appellant that the color discrepancy was the reason
for the stop and asked appellant for his license, registration, and proof of insurance. Appellant did not
have any identification on him. While obtaining appellant’s personal information, Heinz was able to
verify the last six numbers of the GMC’s VIN by
providing the numbers to dispatch, who verified that
the numbers matched the records of the Bureau of
Motor Vehicles (“BMV”).
{¶ 4} Heinz returned to his patrol car to write appellant a warning and to run the social security
number appellant provided. The social security
number belonged to a different individual. Heinz
again approached appellant’s vehicle and verified
appellant’s name, date of birth, and his social security number. Although Heinz instructed appellant to
“sit tight” while Heinz ran the second social security
number, appellant began to slowly drive away. Heinz
followed in his patrol car.
{¶ 5} While Heinz followed appellant’s vehicle, he
ran the second social security number provided by
appellant. This number also belonged to someone

19a
other than appellant. Heinz then ran appellant’s
name and date of birth through dispatch. He was
advised that appellant did not have a valid driver’s
license and had a warrant for his arrest out of Delaware County. Heinz activated his patrol car’s lights
and sirens, and appellant pulled over the SUV he
was operating. However, after Heinz informed appellant there was a warrant out for his arrest, appellant
“gunned the engine and took off at a rapid rate.”
Heinz called for assistance and set off in pursuit of
appellant, with his vehicle’s lights and sirens activated.
{¶ 6} After nearly hitting a police cruiser, appellant veered off the road and drove through yards before striking a bush or a small tree. Appellant then
abandoned his vehicle and fled on foot. He was apprehended by Heinz and arrested. Appellant’s vehicle was inventoried, and two credit cards were found
in the glovebox of the SUV. The credit cards were
not in appellant’s name and had previously been reported stolen.
{¶ 7} On June 3, 2016, appellant was indicted on
two counts of receiving stolen property in violation of
R.C. 2913.51(A) and (C), felonies of the fifth degree,
and one count of failing to comply with an order or
signal of a police officer in violation of R.C.
2921.331(B) and (C)(5)(a)(ii), a felony of the third degree as appellant’s operation of the motor vehicle
caused a substantial risk of serious physical harm to
persons or property. Appellant moved to suppress all
evidence relating to his traffic stop on the basis that
Heinz “lacked reasonable and articulable suspicion
to make an investigatory stop.” Appellant contended
the “mismatch” between the SUV’s color and the color listed on the vehicle’s registration did not provide

20a
reasonable suspicion to justify the stop.
{¶ 8} The only witness to testify at the hearing on
appellant’s motion was Heinz, who testified as follows regarding the traffic stop:
[Prosecutor]: What if any concern to you have
that a plate [sic], cause it sounds like it
matched the type of vehicle, but it didn’t match
the color of the vehicle. What reason would you
have for any concern?
Heinz: Yeah typically with my, with my experience when subjects will steal a vehicle and that
is why BMV started implementing the colors is,
in years past somebody would steal a vehicle.
***
In years past, with my experience, if someone
would steal a vehicle, they would just go
through a parking lot anywhere and find a vehicle that would match the vehicle in which
they were driving. Throw that [plate] on there
and then drive around.
[Prosecutor]: And have you had that experience
personally with vehicles that have been stolen
in and around Washington Court House?
Heinz: Me personally, no. However, in our city,
yes. We have license plates [that] have been
taken off and done that, yes.
***
[Defense Counsel]: [You] talked a little bit
about your experience investigating. How many
car thefts have you investigated in your career?
Heinz: Car thefts?
***

21a
I can’t put a number, but it’s been quite a few.
[Defense Counsel]: As the, have you ever investigated them, or where you the officer on the
scene or how did it, how did that work?
Heinz: I have both had investigations of vehicle
thefts [sic]. I have also had recovery of stolen
vehicles and I have also had recovery of stolen
license plates as well.
[Defense Counsel]: You said you’ve never experienced a situation like this. Where a, where as
you said, where a plate may have been
switched from a vehicle?
Heinz: Me personally?
[Defense Counsel]: Yes.
Heinz: No.
[Defense Counsel]: Okay.
Heinz: But yes, it is done.
***
[Defense Counsel]: [J]ust for clarification purposes, the only reason that [appellant] was
stopped was due to the color of the vehicle not
matching registration?
Heinz: The, the vehicle did not match the vehicle [sic]. Which at the time I believed was [a]
fictitious registration.
[Defense Counsel]: What I asked was the sole
reason you stopped Mr. Hawkins was because
the color of the vehicle did not match the color
that you were told by a dispatcher that the vehicle should have been on the registration?
Heinz: That would be correct.
{¶ 9} When questioned about whether driving a

22a
vehicle that is a different color than the color listed
on the vehicle’s registration is, “in and of itself,” a
crime, Heinz initially testified he did not know.
However, he then clarified that “[w]e have been told
by our prosecutors yes, it is. It is. However, we do
not charge for the color discrepancy.” Heinz testified
that a person could, however, be charged with “fictitious registration because the colors [do] not match.”
{¶ 10} After considering Heinz’s testimony, the
trial court denied appellant’s motion to suppress,
stating that there was “nothing unreasonable or constitutionally infirm with the conduct of Officer Heinz
in this case.” The court found “reasonable and articulable suspicion sufficient to initiate the initial detention * * * to determine the validity of the * * * registration issue that was raised when * * * he ran the
registration through the dispatcher and was notified
that it was to a white vehicle.”
{¶ 11} Following the denial of his motion to suppress, appellant was tried to a jury. Heinz was the
sole witness to testify at trial. Following his testimony, appellant moved for acquittal pursuant to
Crim.R. 29, and his motion was denied. The matter
was submitted to the jury, who acquitted appellant
of both counts of receiving stolen property but found
him guilty of failing to comply with the order or signal of a police officer. The jury further found appellant’s operation of the motor vehicle caused a substantial risk of serious physical harm. Appellant was
sentenced to 36 months in prison.
{¶ 12} Appellant appealed, raising the following as
his sole assignment of error:
{¶ 13} THE TRIAL COURT ERRED IN FINDING
LAW ENFORCEMENT HAD A REASONABLE

23a
AND ARTICULABLE SUSPICION [APPELLANT]
WAS ENGAGED IN CRIMINAL ACTIVITY OR
OPERATING HIS VEHICLE IN VIOLATION OF
THE LAW IN DENYING HIS MOTION TO SUPPRESS AND THEREBY ALLOWING IMPROPER
EVIDENCE INTO THE TRIAL IN VIOLATION OF
THE FOURTH AMENDMENT OF THE UNITED
STATES CONSTITUTION AND ARTICLE 1, SECTION 14 OF THE OHIO CONSTITUTION.
{¶ 14} In his sole assignment of error, appellant
argues the trial court erred in denying his motion to
suppress as Patrolman Heinz lacked reasonable articulable suspicion to initiate the traffic stop. He contends the color discrepancy between the paint color
of the SUV and the registration for the vehicle did
not provide sufficient suspicion to justify the traffic
stop. He also argues that because the stop was unlawful, all “derivative evidence” should be suppressed pursuant to the “fruit of the poisonous tree”
doctrine and his Crim.R. 29 motion for acquittal
should be granted for lack of sufficient evidence.
{¶ 15} Our review of a trial court’s denial of a motion to suppress presents a mixed question of law
and fact. State v. Cochran, 12th Dist. Preble No.
CA2006–10–023, 2007-Ohio-3353, 2007 WL 1880207,
¶ 12. Acting as the trier of fact, the trial court is in
the best position to resolve factual questions and
evaluate witness credibility. Id. Therefore, when reviewing the denial of a motion to suppress, a reviewing court is bound to accept the trial court’s findings
of fact if they are supported by competent, credible
evidence. State v. Oatis, 12th Dist. Butler No.
CA2005–03–074, 2005-Ohio-6038, 2005 WL 3031883,
¶ 10. “An appellate court, however, independently
reviews the trial court’s legal conclusions based on

24a
those facts and determines, without deference to the
trial court’s decision, whether as a matter of law, the
facts satisfy the appropriate legal standard.”
Cochran at ¶ 12.
{¶ 16} “The Fourth Amendment to the United
States Constitution and Section 14, Article I of the
Ohio Constitution prohibit unreasonable searches
and seizures, including unreasonable automobile
stops.” Bowling Green v. Godwin, 110 Ohio St.3d 58,
2006-Ohio-3563, 850 N.E.2d 698, ¶ 11. “Ohio recognizes two types of lawful traffic stops.” State v. Stover, 12th Dist. Clinton No. CA2017–04–005, 2017Ohio-9097, 2017 WL 6450754, ¶ 8. The first involves
a non-investigatory stop in which an officer has
probable cause to stop a vehicle because the officer
observed a traffic violation. Id., citing State v. Moore,
12th Dist. Fayette No. CA2010–12–037, 2011-Ohio4908, 2011 WL 4436647, ¶ 31. “The second type of
lawful traffic stop is an investigative stop, also
known as a Terry stop, in which the officer has reasonable suspicion based on specific or articulable
facts that criminal behavior is imminent or has occurred.” Id., citing State v. Bullock, 12th Dist., 2017Ohio-497, 85 N.E.3d 133, ¶ 7. See also Moore at ¶ 33,
citing Terry v. Ohio, 392 U.S. 1, 21, 88 S.Ct. 1868, 20
L.Ed.2d 889 (1968). The present case involves the
latter of the two stops.
{¶ 17} With respect to a Terry stop, the concept of
“reasonable and articulable suspicion” has not been
precisely defined; it has been described as something
more than an undeveloped suspicion or hunch but
less than probable cause. State v. Baughman, 192
Ohio App.3d 45, 2011-Ohio-162, 947 N.E.2d 1273, ¶
15, citing Terry at 20–21, 88 S.Ct. 1868. The “reasonable suspicion standard” under Terry is an objec-

25a
tive, not a subjective, one. Stover at ¶ 9, citing State
v. McCandlish, 10th Dist. Franklin No. 11AP–913,
2012-Ohio-3765, 2012 WL 3582583, ¶ 7. For this
reason, the propriety of an investigative stop must
be “viewed in light of the totality of the surrounding
circumstances, from the perspective of a reasonably
prudent police officer on the scene guided by his experience and training.” Baughman at ¶ 15, citing
State v. Batchili, 113 Ohio St.3d 403, 2007-Ohio2204, 865 N.E.2d 1282, paragraph two of the syllabus; and State v. Bobo, 37 Ohio St.3d 177, 524
N.E.2d 489 (1988), paragraph one of the syllabus.
{¶ 18} In the present case, Heinz testified he initiated a traffic stop because appellant was driving a
black GMC SUV when the registration indicated the
vehicle was white, and this discrepancy led him to
believe the vehicle had a fictitious registration or
might have been stolen. This court has not previously addressed the issue of whether the discrepancy
between the color of a defendant’s vehicle and the
color listed in registration records accessed by a police officer provides the officer with reasonable suspicion to perform an investigative traffic stop. Courts
that have considered the issue are split.
{¶ 19} The Seventh Circuit Court of Appeals, the
Arkansas Supreme Court, the Florida Supreme
Court, and the Fifth District Court of Appeals have
all determined that a discrepancy in an automobile’s
paint color found via a database check does not
amount to reasonable suspicion of criminal activity
sufficient to justify a warrantless investigatory stop.
See United States v. Uribe, 709 F.3d 646 (7th
Cir.2013); Schneider v. State, 459 S.W.3d 296
(Ark.2015); State v. Teamer, 151 So.3d 421
(Fla.2014); State v. Unger, 5th Dist. Stark No. 2016

26a
CA 00148, 2017-Ohio-5553, 2017 WL 2799530. In
many of these cases, the courts considering the issue
have noted that there was no requirement under
state law to update a vehicle registration when an
owner changes the color of his or her car. Uribe at
650 (noting “the color discrepancy itself was lawful,
because neither Indiana nor Utah requires a driver
to update his vehicle registration when he changes
the color of his car”); Schneider at 299 (noting Arkansas has no requirement that the owner of a vehicle change the registration to reflect the color of a
vehicle in the event it is painted or the color is otherwise altered); Teamer at 427–428 (finding a color
discrepancy is not “ ‘inherently suspicious’ or ‘unusual enough’ or ‘so out of the ordinary’ as to provide
an officer with a reasonable suspicion of criminal activity, especially given the fact that it is not against
the law in Florida to change the color of your vehicle
without notifying the DHSMV”). The courts concluded that the lawful color discrepancy alone was not
probative of wrongdoing and therefore did not authorize a traffic stop. Uribe at 652; Schneider at 299–
300; Teamer at 428 (“to find reasonable suspicion
based on this single noncriminal factor would be to
license investigatory stops on nothing more than an
officer’s hunch”).
{¶ 20} Other courts that have considered the issue
have come out in the other direction. Appellate
courts in Georgia, Indiana, and Idaho have all determined that the discrepancy between an automobile’s paint color and the color reported on a vehicle’s
registration amounts to reasonable suspicion of criminal activity to authorize an investigatory stop when
the officer believes the vehicle was stolen or has a
fictitious plate. See Smith v. State, 713 N.E.2d 338,

27a
342 (Ind.App.1999) (finding that the color discrepancy gave an officer “reasonable suspicion to believe
that * * * vehicle had a mismatched plate, and as
such, could be stolen or retagged”); Andrews v. State,
289 Ga. App. 679, 681, 658 S.E.2d 126 (2008) (finding the color discrepancy gave an officer reasonable
and articulable suspicion for the investigatory stop
where the officer had reason to believe the license
plate had been improperly switched or transferred in
violation of Georgia law); State v. Creel, 2012 WL
9494147, *2 (2012) (finding that the color discrepancy gave the officer reasonable and articulable suspicion to initiate the stop where the officer testified the
vehicle “could have had fictitious license plates in
violation of I.C. § 49–456(3) or the vehicle could have
been stolen and the plates were from another S–10
pickup”). In these cases, the courts noted that the
officer “was entitled to draw from the facts in light of
his experience” and training. Andrews at 681, 658
S.E.2d 126. See also Creel, 2012 WL 9494147, at *2.
{¶ 21} We are persuaded by the approach taken in
Smith, Andrews, and Creel and find that under the
facts of the present case, reasonable and articulable
suspicion existed to authorize Heinz’s stop of appellant’s vehicle. The color discrepancy between the vehicle’s actual paint color (black) and the BMV’s registration (white) gave Heinz reason to believe that
the vehicle may have been stolen or the license plate
switched from another vehicle. Heinz testified that
although he had not personally experienced a situation where a car thief had replaced a vehicle’s original license plate with a stolen plate taken from a
similar vehicle, from his 14 years of law enforcement
experience he knew that this type of criminal behavior occurred. He further testified that such criminal

28a
activity had occurred in and around Washington
Court House.
{¶ 22} Accordingly, for the reasons set forth above,
we find that the trial court did not err in denying
appellant’s motion to suppress. The discrepancy in
the vehicle’s color coupled with Heinz’s experience
and belief that the vehicle or its plates might have
been stolen provided reasonable and articulable suspicion to authorize the investigatory stop of appellant’s vehicle.
{¶ 23} Therefore, as the traffic stop was lawful, we
find no merit to appellant’s arguments that the evidence flowing from the stop must be suppressed pursuant to the “fruit of the poisonous tree” doctrine.
Heinz trial testimony about the events that occurred
leading up to, during, and after the traffic stop was
properly admitted. Through Heinz’s testimony the
state presented sufficient evidence to sustain appellant’s conviction for failing to comply with an order
or signal of a police officer. Appellant fled from
Heinz after being advised there was a warrant for
his arrest. He ignored the police cruiser’s lights and
sirens—visible and audible signals to stop his vehicle—and in fleeing from Heinz, caused a substantial
risk of harm to both property and persons. See, e.g.,
State v. Monnin, 12th Dist. Warren CA2016–07–058,
2017-Ohio-1095, 2017 WL 1131932, ¶ 13–30.
{¶ 24} The arguments set forth in appellant’s sole
assignment of error are therefore without merit and
his assignment of error is overruled.
{¶ 25} Judgment affirmed.

29a
APPENDIX C
The Supreme Court of Ohio
State of Ohio
v.
Justin Hawkins

Case No. 2018-1177
RECONSIDERATION ENTRY
Fayette County

Filed December 31, 2019
It is ordered by the court that the motion for reconsideration in this case is denied.
(Fayette County Court of Appeals; No. CA2017-07013)
/s/ Maureen O’Connor
Chief Justice

